No. _____
In the Supreme Court of the United States
__________________
DEPUTY SHERIFF JONATHAN LOZADA, IN HIS
INDIVIDUAL CAPACITY,
Petitioner,
v.
DUDLEY TEEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF SUSAN TEEL,
Respondent.
__________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
SUMMER M. BARRANCO
Counsel of Record
RICHARD A. GIUFFREDA
PURDY, JOLLY, GIUFFREDA, BARRANCO &
JISA, P.A.
2455 East Sunrise Boulevard,
Suite 1216
Fort Lauderdale, Florida 33304
Telephone: (954) 462-3200
Telecopier: (954) 462-3861
summer@purdylaw.com
richard@purdylaw.com
Counsel for Petitioner
April 16, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Whether this Court should clarify the application of
the Graham factors to a law enforcement officer’s use
of force during a call for service that does not involve
commission of a crime as the officer should not start off,
as the Sixth Circuit has described, with two strikes
against him or her regarding the severity of the crime
and intentional resistance to arrest factors.
Whether the obvious factual clarity rule can be
applied by a Circuit Court panel to deny qualified
immunity to a law enforcement officer in a Fourth
Amendment excessive force case, where the District
Court determined at the summary judgment stage of
the case that the officer’s use of deadly force was
constitutional as a matter of law.
Whether the Eleventh Circuit misapplied the
Graham factors to the evidence and improperly judged
Deputy Lozada’s conduct in hindsight.
Whether the Eleventh Circuit engaged in reversible
error in finding that Deputy Lozada is not entitled to
qualified immunity under the unique facts of this case,
despite the absence of factually similar case law, by
application of the obvious factual clarity rule contrary
to this Court’s prior opinions.
This case involves the split second decision by
Indian River County Sheriff’s Deputy Jonathan Lozada
to use deadly force on Mrs. Susan Teel in the bedroom
of her home while she walked toward Lozada with a
large knife wielded overhead in a threatening manner.

ii
Lozada fired his weapon as he attempted to retreat,
during which time Mrs. Teel continued to advance
despite being shot. A third and final shot ended the
deadly threat Mrs. Teel posed to Lozada who was only
feet away. It is undisputed that Mrs. Teel was suicidal,
as reported by her husband, Dr. Teel, and that she was
under the influence of both alcohol and medication at
the time of the incident. Mrs. Teel had cut herself with
the knife, and was bleeding. Dr. Teel had blood on his
clothing when Lozada first encountered him upon
arrival at the home as the result of Dr. Teel’s failed
attempt to control and disarm his wife. The only
surviving eye witness to the encounter was Deputy
Lozada, who was crisis intervention team trained, as
well as a member of the Sheriff’s Office’s Crisis
Negotiating Team. There is no video of the incident.
Deputy Lozada’s motion for summary judgment was
granted by the District Court, which found that
Lozada’s use of deadly force was constitutional as a
matter of law. As a result, the District Court never
reached the issue of qualified immunity. The Eleventh
Circuit reversed in part, finding, among other things,
that Lozada was not entitled to qualified immunity as
the facts of this case presented a clearly obvious
violation of the Constitution and that because this case
did not involve the commission of a crime, the Graham
factors weighed against Deputy Lozada.

iii
STATEMENT OF RELATED PROCEEDINGS
Teel v. Lozada and Sheriff, 2019 WL 7945692 (S.D.
Fla. 2017)
Teel v. Lozada, 826 F.Appx. 880 (9/23/20 11th Cir.)
(reversing judgment in part, vacating in part).

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS AND ORDERS BELOW . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. Basis for Federal Jurisdiction in the
Court of First Instance. . . . . . . . . . . . . . . . 3
B. The Underlying Events . . . . . . . . . . . . . . . 3
C. The District Court Granted Summary
Judgment and Found that Deputy
Lozada’s Use of Deadly Force Did Not
Violate the Constitution . . . . . . . . . . . . . . 5
D. The Appeal and the Eleventh Circuit
Panel’s Opinion . . . . . . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE WRIT. . . . . . . . . 9

v
I.

WHETHER THIS COURT SHOULD
CLARIFY THE APPLICATION OF THE
GRAHAM FACTORS TO A LAW
ENFORCEMENT OFFICER’S USE OF
FORCE DURING A CALL FOR SERVICE
THAT DOES NOT INVOLVE COMMISSION
OF A CRIME AS THE OFFICER SHOULD
NOT START OFF, AS THE SIXTH CIRCUIT
HAS DESCRIBED, WITH TWO STRIKES
AGAINST HIM OR HER REGARDING THE
SEVERITY OF THE CRIME AND
INTENTIONAL RESISTANCE TO ARREST
FACTORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. The Graham Factors Do Not Provide
Sufficient Guidance to Courts When
Dealing With Police Uses of Force in NonCriminal Matters . . . . . . . . . . . . . . . . . . . 9
B. As the Graham Factors Do Not Address
the Non-Criminal Matters that Officers
Often Are Faced With as Part of Their
Normal Duties, Circuit Courts Are
Fashioning their Own Analyses, While
Others Merely Gloss Over the Factors,
Which Ends Up With Results That Do
Not Align with the Spirit of Graham . . . 15

vi
II.

WHETHER THE OBVIOUS FACTUAL
CLARITY RULE CAN BE APPLIED BY A
CIRCUIT COURT PANEL TO DENY
QUALIFIED IMMUNITY TO A LAW
ENFORCEMENT OFFICER IN A FOURTH
AMENDMENT EXCESSIVE FORCE CASE,
WHERE THE DISTRICT COURT
DETERMINED AT THE SUMMARY
JUDGMENT STAGE OF THE CASE THAT
THE OFFICER’S USE OF DEADLY FORCE
WAS CONSTITUTIONAL AS A MATTER
OF LAW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

III.

THE ELEVENTH CIRCUIT PANEL’S
DECISION IS WRONG. . . . . . . . . . . . . . . . . 22
A. The Eleventh Circuit misapplied the
Graham factors to the evidence and
improperly judged Deputy Lozada’s
conduct in hindsight. . . . . . . . . . . . . . . . . 22
B. The Eleventh Circuit engaged in
reversible error in finding that Deputy
Lozada is not entitled to Qualified
Immunity under the unique facts of this
case, despite the absence of factually
similar case law, by application of the
obvious factual clarity rule contrary to
this Court’s prior opinions. . . . . . . . . . . . 30

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

vii
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(September 23, 2020) . . . . . . . . . . App. 1
Appendix B Order on Defendants’ Motions for
Summary Judgment in the United
States District Southern District of
Florida
(October 17, 2019) . . . . . . . . . . . . App. 21
Appendix C Final Judgment in the United States
District Southern District of Florida
(October 17, 2019) . . . . . . . . . . . . App. 38
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Eleventh Circuit
(November 18, 2020) . . . . . . . . . . App. 40

viii
TABLE OF AUTHORITIES
CASES
Ames v. King Cty., Washington,
846 F.3d 340 (9th Cir. 2017). . . . . . . . . . . . . 17, 18
Anaya v. Crossroads Managed Care Systems.,
Incorporated, 195 F.3d 584 (10th Cir. 1999) . . . 10
Anderson v. Creighton,
483 U.S. 635 (1987). . . . . . . . . . . . . . . . . . . . . . . 21
Blackston v. Shook and Fletcher Insulation Company,
764 F.2d 1480 (11th Cir. 1985). . . . . . . . . . . . . . 23
Bright v. Thomas,
754 F.Appx. 783 (11th Cir. 2018) . . . . . . . . . . . . 10
Brosseau v. Haugen,
543 U.S. 194 (2004) . . . . . . . . . . . . . 20, 21, 29, 31
Brown v. United States,
256 U.S. 335, 41 S.Ct. 501, 65 L.Ed. 961
(1921). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Cantu v. City of Dothan, Alabama,
2020 WL 5270645 (11th Cir. 2020) . . . . . . . . . . 28
Carr v. Tatangelo,
338 F.3d 1259 (11th Cir. 2003). . . . . . . . . . . . . . 28

ix
City and County of San Francisco, Calif. v. Sheehan,
135 S.Ct. 1765 (2015) . . . . . . . . . . . . . . . . . . . . . 30
City and County of San Francisco, Calif. v. Sheehan,
575 U.S. 600 (2015). . . . . . . . . . . . . . . . . . . . . . . 28
Collar v. Austin,
659 F.Appx. 557 (11th Cir. 2016) . . . . . . . . . . . . 26
Connor v. Thompson,
647 F.Appx. 231 (4th Cir. 2016) . . . . . . . . . . . . . 16
District of Columbia v. Wesby,
138 S.Ct. 577 (2018) . . . . . . . . . . . . . . . . . . . . . . 30
Estate of Armstrong ex rel. Armstrong v. Village of
Pinehurst,
810 F.3d 892 (4th Cir. 2016). . . . . . . . . . . . . 16, 19
Estate of Hill v. Miracle,
853 F.3d 306 (6th Cir. 2017). . . . . . . . . . . . . . . . 13
Graham v. Connor,
490 U.S. 386, 109 S.Ct. 1865,104 L.Ed.2d 443
(1989). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Gray v. Cummings,
917 F.3d 1 (1st Cir. 2019) . . . . . . . . . . . . . . . . . . 19
Harris v. Serpas,
745 F.3d 767 (5th Cir. 2014). . . . . . . . . . . . . . . . 16

x
Hope v. Pelzer,
536 U.S. 730, 122 S.Ct. 2508, 153 L.Ed.2d 666
(2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21, 31
Kisela v. Hughes,
138 S.Ct. 1148, 200 L.Ed. 2d 449 (2018)
. . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 27, 29, 31, 32
Mercado v. City of Orlando,
407 F.3d 1152 (11th Cir. 2005). . . . . 12, 26, 28, 32
Mullenix v. Luna,
577 U.S. 7 (2015). . . . . . . . . . . . . 21, 25, 29, 30, 31
Penley v Eslinger,
605 F.3d 843 (11th Cir. 2010). . . . . . . . . . . . . . . 29
Plakas v. Drinski,
19 F.3d 1143 (7th Cir. 1994). . . . . . . . . . . . . . . . 29
Quiles v. City of Tampa Police Department,
596 F.Appx. 816 (11th Cir. 2015) . . . . . . . . . . 8, 29
Rockwell v. Brown,
664 F.3d 985 (5th Cir. 2011). . . . . . . . . . . . . . . . 17
Scott v. Harris,
550 U.S. 372 (2007). . . . . . . . . . . . . . . . . . . . 13, 24
Shaw v. City of Selma,
884 F.3d 1093 (11th Cir. 2018). . . . . . . . 23, 24, 32

xi
Smith v. City of Hemet,
394 F.3d 689 (9th Cir. 2005). . . . . . . . . . . . . . . . 19
Sprint/United Management Company v. Mendelsohn,
552 U.S. 379, 128 S.Ct. 1140, 170 L.Ed.2d 1 (2008)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Terrell v. Smith,
668 F.3d 1244 (11th Cir. 2012). . . . . . . . . . . . . . 29
White v. Pauly,
137 S.Ct. 548 (2017) . . . . . . . . . . . . . . . . 21, 31, 32
STATUTES
Art. VII, §(6)(f)(3)(a) (Fla). . . . . . . . . . . . . . . . . . . . . . 9
§30.15, Fla. Stat. (2017) . . . . . . . . . . . . . . . . . . . . . . 10
§112.1815, Fla. Stat. (2017) . . . . . . . . . . . . . . . . . . . . 9
§§ 394.451– 394.47892, Fla. Stat. (2017) . . . . . . . . 10
§397, Fla. Stat. (2017) . . . . . . . . . . . . . . . . . . . . . . . 10
§843.02, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Title 28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . 1
Title 28 U.S.C. §1291 . . . . . . . . . . . . . . . . . . . . . . . . . 3
Title 28 U.S.C. §1331 . . . . . . . . . . . . . . . . . . . . . . . . . 3
Title 28 U.S.C. §1343 . . . . . . . . . . . . . . . . . . . . . . . . . 3

xii
Title 28 U.S.C. §1367 . . . . . . . . . . . . . . . . . . . . . . . . . 3
Title 42 U.S.C. §1983 . . . . . . . . . . . . . . . . . . . . . . . 1, 2
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . . . . 2
OTHER AUTHORITIES
Seth W. Stoughton,
How the Fourth Amendment Frustrates the
Regulation of Police Violence, 70 Emory L.J. 555
(2021). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

1
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Eleventh Circuit.
OPINIONS AND ORDERS BELOW
The panel opinion below is an unpublished opinion
that can be found at 826 F.Appx. 880 (11th Cir. 2020).
(Pet. App. 1). The per curiam denial of the petition for
rehearing and rehearing en banc is not published. (Pet.
App. 40). The district court’s opinion regarding
Defendants’ motions for summary judgment is
unpublished but can be found at 2019 WL 7945692
(S.D. Fla. Oct. 17, 2019)(Pet. App. 21).
JURISDICTION
The Eleventh Circuit entered judgment on
September 23, 2020 (Pet. App. 1) and denied the
petition for rehearing and rehearing en banc on
November 18, 2020. (Pet. App.40). By Order of this
Court dated March 19, 2020, due to the pandemic, this
petition’s filing date is April 16, 2021. The Court has
jurisdiction under Title 28 U.S.C. §1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This Title 42 U.S.C. §1983 case involves the Fourth
Amendment to the United States Constitution.

2
The Fourth Amendment to the United States
Constitution reads as follows:
The right of the people to be secure in their
persons, houses, papers and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
Title 42 U.S.C. §1983 reads as follows:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of
Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of
the District of Columbia.

3
STATEMENT OF THE CASE
A. Basis for Federal Jurisdiction in the
Court of First Instance
The District Court had jurisdiction pursuant to Title
28 U.S.C. §§ 1331, 1343 and 1367. The Circuit Court
had jurisdiction pursuant to Title 28 U.S.C. §1291.
B. The Underlying Events
On the evening of July 26, 2017, Mrs. Teel’s
daughter called 911 reporting that her mother had
attempted suicide. The dispatcher announced over the
radio that Mrs. Teel had possibly cut herself and was
under the influence of alcohol. Deputy Lozada, who was
on patrol at that time, responded to this dispatch.
Deputy Lozada at the time of the incident, was Crisis
Intervention Team (CIT) trained and a member of
IRCSO’s Crisis Negotiation Team.
When Deputy Lozada arrived at the Teel residence,
he spoke briefly with Mrs. Teel’s husband, Dr. Dudley
Teel, while standing in the doorway of their home. Dr.
Teel explained that Mrs. Teel was upstairs and was
trying to kill herself with a knife. Deputy Lozada
noticed that there was fresh blood on Dr. Teel’s
clothing.
Upon entering the house, before heading upstairs,
Deputy Lozada drew his gun for officer safety reasons.
Once Lozada reached the top of the stairs, he saw Mrs.
Teel. She was lying on the bed in the master bedroom
and was wearing a large thick red bathrobe which

4
concealed the extent of her self-inflicted injuries. While
standing at the threshold of her bedroom, Deputy
Lozada called out “Sheriff’s Office, let me see your
hands.” Deputy Lozada then took two or three steps
into the bedroom.
Once Mrs. Teel arose from the bed, Deputy Lozada
saw that she was holding a large 13" knife with an 8"
blade. Mrs. Teel held the knife in the air with the blade
pointed down, as though preparing to stab someone
and began walking towards Lozada. In response, he
took a step backwards. As Mrs. Teel walked, she said
“Fuck you. Kill me.” By this point, Deputy Lozada had
aimed his gun at Mrs. Teel. Deputy Lozada got on his
radio and said “Indian River, she’s got a knife. Give me
10-33" (emergency traffic). Mrs. Teel continued to “take
steps towards” Deputy Lozada and said “Come on, just
do it.” During this time, Deputy Lozada started
retreating. He sees Mrs. Teel continue to approach him
with the raised knife. When she is no more than ten
feet from him, and feeling that he is in imminent
danger of being severely injured or killed, Deputy
Lozada fires his gun at her, striking her. However, she
continues to approach. He then fires a second round
which also strikes her, but she continues to approach.
By this time, Deputy Lozada had backed up into the
doorway of the master bedroom and then out into an
adjacent sitting room located at the top of the stairs. At
this point, Deputy Lozada shoots Mrs. Teel a third and
final time which causes her to collapse in the doorway
of the master bedroom where she dies.
At no point did Deputy Lozada specifically tell Mrs.
Teel to drop her knife or warn her that he would use

5
deadly force against her. On the radio transmission
during the incident, Deputy Lozada can be heard
saying to Mrs. Teel: “don’t come....” Deputy Lozada had
non-lethal weapons with him at the time, including
pepper spray and a Taser.
C. The District Court Granted Summary
Judgment and Found that Deputy
Lozada’s Use of Deadly Force Did Not
Violate the Constitution
The District Court granted summary judgment for
Deputy Lozada finding that his actions in shooting
Mrs. Teel did not violate the Fourth Amendment. In so
holding, the district court judge stated:
The constitutionality of Defendant Lozada’s
actions are resolved on the basis of the agreed
testimony. In Defendant’s Statement of Material
Facts, the shooting is described as follows:
Mrs. Teel continues to advance and says “Come
on, just do it.” During this time, Deputy Lozada
starts retreating. He sees Mrs. Teel continue to
approach him with the raised knife. Feeling that
he is in imminent danger of being injured or
killed, he fires his gun at her, striking her.
However, she continues to approach. He then
fires a second round which also strikes her, but
she continues to approach. By this time, Deputy
Lozada had backed up into the doorway of the
master bedroom and then out into an adjacent
sitting room located at the top of the stairs. At
this point, he shoots Mrs. Teel a third and final

6
time which causes her to collapse in the doorway
of the master bedroom. (DE 29 at ¶ 16)
(emphasis added) (citations omitted).
In response to Defendant’s statement in
paragraph 16, Plaintiff responds:
Disputed as to Lozada’s claim that he was in
imminent danger. Lozada admits there was no
zone of danger before he came upstairs. And
Lozada admits he did not believe his life was in
danger before he came into her nedroom [sic]
with his gun drawn, after which, she started
moving towards him. Lozada never told Mrs.
Teel to drop the knife prior to discharging his
firearm three times. Lozada never gave her a
warning.
Perhaps given that Defendant Lozada was the
only living person to see these events occur and
was not wearing a body camera there could be
room for doubt. However, this court is bound by
the facts on which the Parties have agreed. On
a motion for summary judgment, this court must
accept as true material facts which are not
disputed. See generally, Celotex Corp. v. Catrett,
477 U.S. at 323.
Here, Plaintiff does not in any way dispute that
Mrs. Teel continued to walk towards Defendant
with a knife before each shot that Defendant
Lozada fired. Even construing these facts in the
light most favorable to Plaintiff, this is a central
admission to the disposition of this case; Fourth

7
Amendment excessive force cases often turn on
whether the victim was moving towards the
officer, particularly if the individual is armed.
The Parties agree that Mrs. Teel was verbally
engaging with Defendant Lozada, saying “Come
on, do it” and at each relevant instance
continued to “approach” him. Given these agreed
facts, a reasonable jury could not find that Mrs.
Teel was doing anything other than walking at
Defendant Lozada. (DE 29 at ¶ 15, 16). Further,
Plaintiff does not dispute that as Mrs. Teel
walked towards Defendant Lozada, she kept the
knife in her hand the entire time. McKinney by
McKinney v. DeKalb Cty., Ga., 997 F.2d 1440,
1443 (11th Cir. 1993) (affirming denial of
qualified immunity where decedent had
“previously put down his knife”). So long as Mrs.
Teel was holding the knife the entire time, the
position of the weapon did not matter. Shaw v.
City of Selma, 884 F.3d 1093, 1100 (11th Cir.
2018) (finding it immaterial whether a hatchet
was held by the decedent’s “side, behind his
back, or above his head” before deadly force was
used);
Finally, neither Party disputes that this
shooting took place in and immediately outside
Mrs. Teel’s bedroom. While the exact number of
feet are disputed, even taking the facts in the
light most favorable to Plaintiff, there can be no
doubt that Mrs. Teel was relatively close to
Defendant Lozada. Further, although the
Parties agree that Defendant Lozada failed to

8
issue a warning, “an officer’s failure to issue a
seemingly feasible warning—at least, to a
person appearing to be armed—does not, in and
of itself, render automatically unreasonable the
use of deadly force.” Quiles v. City of Tampa
Police Dep’t, 596 F.Appx. 816, 820 (11th Cir.
2015).
...
Based on the agreed facts and applicable
precedent, I find that Defendant Lozada did not
violate the constitution and thus there is no
need for me to discuss the issue of qualified
immunity. Had Mrs. Teel stopped walking after
any shot, or had she dropped the knife at any
point, I might reach a different conclusion, but
based on the agreed facts, a reasonable officer
would be justified in using deadly force. While I
deeply sympathize with the Teel family, I must
apply the law as it stands. Therefore, summary
judgment is granted for Defendant Lozada as to
Count I. (Pet. App. 21, pgs. 6-10).
D. The Appeal and the Eleventh Circuit
Panel’s Opinion
Plaintiff’s appeal followed. The Eleventh Circuit
panel issued an unpublished opinion which reversed in
part and vacated in part the judgment finding, among
other things, that Deputy Lozada was not entitled to
qualified immunity as the facts of this case presented
a clearly obvious violation of the Constitution and that
because this case did not involve the commission of a

9
crime, the Graham factors weighed against Deputy
Lozada. (Pet. App. 1).
REASONS FOR GRANTING THE WRIT
I.

WHETHER THIS COURT SHOULD
CLARIFY THE APPLICATION OF THE
G R A H AM FA C TOR S TO A LA W
ENFORCEMENT OFFICER’S USE OF
FORCE DURING A CALL FOR SERVICE
THAT DOES NOT INVOLVE COMMISSION
OF A CRIME AS THE OFFICER SHOULD
NOT START OFF, AS THE SIXTH CIRCUIT
HAS DESCRIBED, WITH TWO STRIKES
AGAINST HIM OR HER REGARDING THE
SEVERITY OF THE CRIME AND
INTENTIONAL RESISTANCE TO ARREST
FACTORS.
A. The Graham Factors Do Not Provide
Sufficient Guidance to Courts When
Dealing With Police Uses of Force in
Non-Criminal Matters

Deputy Lozada is a first responder under Florida
law1 as are many police officers around the United
States. As such, police officers respond to calls for
service that do not involve an initial report of criminal

1

See §112.1815, Fla. Stat. (2017) and Art. VII, §(6)(f)(3)(a) (Fla)
(“First responder means a law enforcement officer, a corrections
officer, a firefighter, an emergency medical technician or a
paramedic.”)

10
activity on a regular basis.2 For example, police officers
in Florida have the authority to civilly commit a person
who poses a threat to themselves or others, such as a
suicidal person, pursuant to Florida’s Baker Act law.
See §§394.451 – 394.47892, Fla. Stat. (2017). They also
have the authority to civilly commit a person who is
intoxicated or substance abuse impaired and who poses
a danger to themselves as a result of such impairment
pursuant to Florida’s Marchman Act law. See §397,
Fla. Stat. (2017). In addition, Sheriffs and deputy
sheriffs have many other powers, duties and
obligations under Florida law beyond enforcing
criminal laws. See §30.15, Fla. Stat. (2017).
Courts have recognized that the government has an
important interest in providing assistance to those in
the throes of a mental health crisis.3 In fact, “[p]olice in
all jurisdictions have the authority to detain a person
who appears to pose an imminent danger, . . . 38 states
explicitly authorize police and peace or parole officers

2

Deputy Lozada had probable cause or at least arguable probable
cause to take Mrs. Teel into custody for involuntary commitment
under Florida’s Baker Act which is a Fourth Amendment seizure.
See Bright v. Thomas, 754 F. Appx. 783 (11th Cir. 2018) and
Anaya v. Crossroads Managed Care Sys., Inc., 195 F.3d 584,
590-91 (10th Cir. 1999). Mrs. Teel’s resistance to that effort
constituted an obstruction under §843.02, Fla. Stat. Additionally,
Deputy Lozada would have had probable cause or at least arguable
cause to believe Mrs. Teel committed an aggravated assault on a
law enforcement officer when she approached Lozada with a knife.
3

See Seth W. Stoughton, How the Fourth Amendment Frustrates
the Regulation of Police Violence, 70 Emory L.J. 521, 555
(2021)(internal references omitted).

11
to initiate the emergency hold process,” and the
remaining states allow officers to effect a hold initiated
by a judge, medical professional, social worker, or other
authorized entity.”4 These types of calls, which at least
initially do not always involve a crime, often require
law enforcement to use force on the person in crisis in
order to resolve the situation.
As this Court noted in Graham:
[d]etermining whether the force used to effect a
particular seizure is “reasonable” under the
Fourth Amendment requires a careful balancing
of “ ‘the nature and quality of the intrusion on
the individual’s Fourth Amendment interests’ “
against the countervailing governmental
interests at stake. Id., at 8, 105 S.Ct., at 1699,
quoting United States v. Place, 462 U.S. 696,
703, 103 S.Ct. 2637, 2642, 77 L.Ed.2d 110
(1983). Our Fourth Amendment jurisprudence
has long recognized that the right to make an
arrest or investigatory stop necessarily carries
with it the right to use some degree of physical
coercion or threat thereof to effect it. See Terry v.
Ohio, 392 U.S., at 22–27, 88 S.Ct., at
1880–1883. Because “[t]he test of reasonableness
under the Fourth Amendment is not capable of
precise definition or mechanical application,”
Bell v. Wolfish, 441 U.S. 520, 559, 99 S.Ct. 1861,
1884, 60 L.Ed.2d 447 (1979), however, its proper
application requires careful attention to the

4

See footnote 3.

12
facts and circumstances of each particular case,
including the severity of the crime at issue,
whether the suspect poses an immediate threat
to the safety of the officers or others, and
whether he is actively resisting arrest or
attempting to evade arrest by flight. See
Tennessee v. Garner, 471 U.S., at 8–9, 105 S.Ct.,
at 1699–1700 (the question is “whether the
totality of the circumstances justifie[s] a
particular sort of ... seizure”). The
“reasonableness” of a particular use of force
must be judged from the perspective of a
reasonable officer on the scene, rather than with
the 20/20 vision of hindsight. See Terry v. Ohio,
supra, 392 U.S., at 20–22, 88 S.Ct., at
1879–1881.
Graham, 490 U.S. at 396.
The Eleventh Circuit panel opinion incorrectly
concluded that “[b]ecause this situation does not
involve a criminal arrest, our facts do not fit neatly
within the Graham framework. Indeed, because
Florida does not recognize attempted suicide as a
crime, it is impossible for this [C]ourt to measure the
severity of the crime at issue. We have little trouble,
then, concluding that this Graham factor weighs in
favor of Dr. Teel.”(internal citation and quotes omitted)
(Pet. App. 1, pg. 12).5
The Eleventh Circuit’s

5

The Eleventh Circuit also applied the Graham factors in a
similar one sided rigid way in Mercado v. Orlando, 407 F.3d 1152
(11th Cir. 2005).

13
application of the Graham factors as a rigid inflexible
framework to a case involving an armed suicidal
person, who could become homicidal without warning,
ignores this Court’s repeated statements that
ultimately the issue is one of reasonableness. Scott v.
Harris, 550 U.S. 372 (2007) and Kisela v. Hughes, 138
S.Ct.1148 (2018). This Court should address the
correct application of the Graham factors in cases
involving the use of force during calls that do not
initially involve the commission of a crime such as was
done by the Sixth Circuit in Estate of Hill v. Miracle,
853 F.3d 306 (6th Cir. 2017).
In Miracle, supra, a deputy responded to a medical
call involving low blood sugar. The deputy arrived
after the medics, who had already begun treating the
patient. The patient became combative and violent,
continuing to kick, swing and swear at the paramedics.
The deputy was aware that persons suffering from low
blood-sugar are often disoriented and unaware of their
surroundings. The deputy tased the patient as a result
of his violent behavior. The Taser worked and the
patient was successfully treated by the paramedics.
The important aspect of this case is that it involved the
correct application of the Graham factors in recognition
of the fact that a medical call does not involve criminal
behavior or resistance to arrest and as such the
defendant law enforcement officer should not start out
with two strikes against him when applying the
Graham factors. The Sixth Circuit stressed that the
proper application of Graham is to examine the overall
objective reasonableness of the force used. Id., at 31214. The Sixth Circuit correctly described the problem

14
with applying the Graham factors to a call that does
not involve the commission of a crime where it stated:
“. . . [A]pplying the Graham factors to the
situation Miracle faced is the equivalent
to a baseball player entering the batter’s
box with two strikes already against him.
In other words, because Hill had not
committed a crime and was not resisting
arrest, two of the three Graham factors
automatically weighed against Miracle.
The key problem is that the district court
tried to apply the Graham factors to a
completely different factual situation-a
medical emergency-where there was no
crime, no resisting of arrest, and no direct
threat to the law-enforcement officer. In
doing so, the court failed to see the forest
(the overall standard of objective
reasonableness) for the trees (the three
factors to use as an aid in assessing
objective reasonableness in the typical
situation).” Id at 313.
The Sixth Circuit went on to conclude that:
“Where a situation does not fit within the
Graham test because the person in
question had not committed a crime, is
not resisting arrest, and is not directly
threatening the officer, the court should
ask:

15
(1) Was the person experiencing a medical
emergency that rendered him incapable of
making a rational decision under
circumstances that posed an immediate
threat of serious harm to himself or
others?
(2) Was some degree of force reasonably
necessary to ameliorate the immediate
threat?
(3) Was the force used more than
reasonably necessary under the
circumstances (i.e., was it excessive)?
If the answers to the first two questions
are “yes” and the answer to the third
question is “no”, then the officer is
entitled to qualified immunity.”
Id. at 314. The Sixth Circuit also concluded that these
questions, like the Graham factors, serve as a guide
and are non-exhaustive.
B. As the Graham Factors Do Not Address
the Non-Criminal Matters that Officers
Often Are Faced With as Part of Their
Normal Duties, Circuit Courts Are
Fashioning their Own Analyses, While
Others Merely Gloss Over the Factors,
Which Ends Up With Results That Do
Not Align with the Spirit of Graham
In addition to the Sixth Circuit’s analysis noted
above, the Fourth Circuit similarly applies the Graham
factors noting that in a case involving an armed

16
suicidal person the severity of the crime factor cannot
be taken into account because there was no crime.
Estate of Armstrong ex rel. Armstrong v. Village of
Pinehurst, 810 F.3d 892 (4th Cir. 2016); Connor v.
Thompson, 647 F. Appx. 231 (4th Cir. 2016).
The Fifth Circuit in Harris v. Serpas, 745 F.3d 767,
772 (5th Cir. 2014) in discussing application of the
Graham factors noted that:
[t]he United States Supreme Court has long held
that courts must look at the “totality of the
ci rcumst a nces” w hen a ssessing t he
reasonableness of a police officer’s use of force.
Graham, 490 U.S. at 396, 109 S.Ct. 1865 (citing
Tennessee v. Garner, 471 U.S. 1, 8–9, 105 S.Ct.
1694, 85 L.Ed.2d 1 (1985)). This Court, however,
has narrowed that test, holding that “[t]he
excessive force inquiry is confined to whether
the [officer] was in danger at the moment of the
threat that resulted in the [officer’s] shooting.”
Bazan, 246 F.3d at 493. Therefore, any of the
officers’ actions leading up to the shooting are
not relevant for the purposes of an excessive
force inquiry in this Circuit.
Harris, 745 F.3d at 774 (affirming grant of qualified
immunity, where officers responded to 911 call by wife
concerned that her husband attempted to commit
suicide, he was armed with a knife, he was getting up
out of bed and raising the knife above his head, and
then one of the officers fired his weapon).

17
The Fifth Circuit in Rockwell v. Brown, 664 F.3d
985, 993 (5th Cir. 2011) noted that it did not need to
apply all of the Graham factors to determine
reasonableness–what mattered was whether the
officers reasonably felt threatened in the moment they
used the force. (See Rockwell, supra, affirming grant of
summary judgment, where officers responded to 911
call by mother regarding her son who was bi-polar,
schizophrenic, and had a history of being suicidal, who
had threatened her, was armed with two knives,
rushed at the officers with the knives, lacerated one of
the officers, and then the officers fired their weapons).
In Ames v. King Cty., Washington, 846 F.3d 340,
348 (9th Cir. 2017), the Ninth Circuit reviewed an
interlocutory appeal which required the Court to
address the reasonableness of actions taken by Sheriff’s
Deputies who were functioning in their community
caretaking capacities during a life-and-death medical
emergency. In reversing the district court’s denial of
qualified immunity on the excessive force and unlawful
search claims, the Ninth Circuit concluded that the
deputies’ actions were objectively reasonable in light of
the urgent need to deliver life-saving care to an
overdose victim, and to ensure the safety of everyone at
the scene:
The government interest in subduing here was
substantial. The first Graham factor speaks of
the “severity of the crime at issue,” but we think
the district court applied this factor too narrowly
when it focused on Ames’s misdemeanor
obstruction of Deputy Volpe rather than the
nature of the ongoing emergency exacerbated by

18
Ames’s resistance. Deputy Volpe was acting in
her community caretaking capacity, “totally
divorced from the detection, investigation, or
acquisition of evidence relating to the violation
of a criminal statute,” when she responded to the
911 call for help. Cady v. Dombrowski, 413 U.S.
433, 441, 93 S.Ct. 2523, 37 L.Ed.2d 706 (1973);
see also United States v. Stafford, 416 F.3d 1068,
1073 (9th Cir. 2005) (explaining that the
“emergency doctrine is based on and justified by
the fact that, in addition to their role as criminal
investigators and law enforcers, the police also
function as community caretakers”). Thus, we
believe the better analytical approach here
under the first Graham factor should be to focus
our inquiry not on Ames’s misdemeanor crime of
obstruction but instead on the serious—indeed,
life-threatening—situation that was unfolding at
the time. Ames was prolonging a dire medical
emergency through her disregard of Deputy
Volpe’s lawful commands, and her actions risked
severe consequences. Because the gravity of
Deputy Volpe’s community caretaking
responsibilities under these circumstances must
be factored into the analysis, we conclude that
the first Graham factor weighs in Deputy
Volpe’s favor.
Ames, 846 F.3d at 348–49 6.

6

In its application of the Graham factors, the Ninth Circuit has
noted that the second factor—whether there is an immediate
threat to the safety of the arresting officer or others—is the most

19
On the other end of the spectrum, the First Circuit
has taken a more rigid approach to the Graham factors
much like the Eleventh Circuit did in the case at bar.
In a case that involved a person suffering from mental
illness who had absconded from the hospital, the First
Circuit found that the first Graham factor weighed
against the involved officer because the officer was not
present to investigate a crime. Gray v. Cummings, 917
F.3d 1 (1st Cir. 2019), citing Estate of Armstrong ex rel.
Armstrong v. Village of Pinehurst, 810 F.3d 892,
899(4th Cir. 2016). Such an overly rigid interpretation
of the Graham factors ultimately misses the forest for
the trees and the whole point of the Fourth
Amendment’s reasonableness analysis which this Court
has repeatedly stated involves a review of the totality
of the circumstances as known to the officer on the
scene without the benefit of 20/20 hindsight.

important. See Smith v. City of Hemet, 394 F.3d 689, 702 (9th Cir.
2005) (en banc).

20
II.

WHETHER THE OBVIOUS FACTUAL
CLARITY RULE CAN BE APPLIED BY A
CIRCUIT COURT PANEL TO DENY
QUALIFIED IMMUNITY TO A LAW
ENFORCEMENT OFFICER IN A FOURTH
AMENDMENT EXCESSIVE FORCE CASE,
WHE R E T H E D I S T R I C T C OUR T
DETERMINED AT THE SUMMARY
JUDGMENT STAGE OF THE CASE THAT
THE OFFICER’S USE OF DEADLY FORCE
WAS CONSTITUTIONAL AS A MATTER OF
LAW.

In Brosseau v. Haugen, 543 U.S. 194, 199 (2004)
this Court stated:
Graham and Garner, following the lead of the
Fourth Amendment’s text, are cast at a high
level of generality. See Graham v. Connor, 490
U.S. 386, 396, 109 S.Ct. 1865,104 L.Ed.2d 443
(1989). “‘[T]he test of reasonableness under the
Fourth Amendment is not capable of precise
definition or mechanical application’”). Of
course, as this Court has stated: in an obvious
case, these standards can “clearly establish” the
answer, even without a body of relevant case
law. See Hope v. Pelzer, 536 U.S. 730, 738, 122
S.Ct. 2508, 153 L.Ed.2d 666 (2002) (noting in a
case where the Eighth Amendment violation
was “obvious” that there need not be a
materially similar case for the right to be clearly
established).

21
Brosseau was decided two years after Hope and
involved the application of the qualified immunity
defense to an officer involved shooting case, noting that
the facts of Brosseau were far from an obvious violation
of the Constitution. This Court has repeatedly told
courts not to define clearly established law at a high
level of generality, further emphasizing that the
specific factual context of a case is especially important
in a Fourth Amendment case. Mullenix v. Luna, 577
U.S. 7, 12 (2015); White v. Pauly, 137 S.Ct. 548 (2017);
Anderson v. Creighton, 483 U.S. 635, 640 (1987).
The Eleventh Circuit panel opinion denied Deputy
Lozada qualified immunity in finding that the facts of
this case fit within this rare exception despite the fact
that a United States District Court Judge, in ruling on
a fully briefed motion for summary judgment, which
was filed after extensive discovery, determined that
Lozada’s use of deadly force was reasonable as a matter
of law, thus never reaching the issue of qualified
immunity. Under such a circumstance, it defies logic
to suggest that any reasonable officer in Deputy
Lozada’s shoes should have or would have known that
the force used was unconstitutional where a Federal
Judge did not reach a similar conclusion. Stated
differently, where the facts of a case do not cause a
Federal Judge to determine that an obvious violation
of the Constitution occurred, how can the law expect a
police officer to so conclude?
This Court should make clear that the obvious
factual clarity rule cannot be applied by a Circuit Court
to deny qualified immunity to a law enforcement officer
in a Fourth Amendment excessive force case where the

22
District Court has determined that a particular use of
force, when viewed in the appropriate manner, was
reasonable as a matter of law, as police officers cannot
be expected to understand the application of law to fact
better than the Court does. This could be done by
requiring an appellate court to demonstrate that the
district court abused its discretion in its determination
of reasonableness–a higher standard of review–which
would give appropriate deference to the trial court’s
unique position in relation to the record evidence such
as is the case in regard to evidentiary questions, where
this Court has noted “a district court virtually always
is in the better position to assess the admissibility of
the evidence in the context of the particular case before
it.” Sprint/United Mgmt. Co. v. Mendelsohn, 552 U.S.
379, 384 128 S. Ct. 1140, 1146, 170 L.Ed.2d 1 (2008).
III.

THE ELEVENTH CIRCUIT
DECISION IS WRONG

PANEL’S

A. The Eleventh Circuit misapplied the
Graham factors to the evidence and
improperly judged Deputy Lozada’s
conduct in hindsight.
The Eleventh Circuit erred in drawing inferences
from the undisputed facts which were both reasonable
and unreasonable. Most notably, it did so when it
determined that there was a material dispute in this
case as to Mrs. Teel posing a threat to anyone other
than herself in this matter. The panel stated:
[c]ritically, however, we conclude that there is a
genuine dispute as to whether Mrs. Teel posed a

23
significant, immediate threat to Officer Lozada’s
safety.” (Pet. App. 1 at pg. 13).
It is important to note that the subject incident
involved only two people: Mrs. Teel, who is now
deceased and Deputy Lozada. There were no other eye
witnesses and there was no video that captured the
incident. As a result, Plaintiff Teel could not
reasonably dispute Lozada’s description of how Mrs.
Teel held the knife. Blackston v. Shook & Fletcher
Insulation Co., 764 F.2d 1480, 1482 (11th Cir. 1985).
Furthermore, as noted by the trial court below
citing to Shaw v. City of Selma, 884 F.3d 1093, 1100
(11th Cir. 2018),
Plaintiff does not dispute that as Mrs. Teel
walked toward Defendant Lozada, she kept the
knife in her hand the entire time.... So long as
Mrs. Teel was holding the knife the entire time,
the position of the weapon did not matter.”
[R-59-8]. The Shaw case involved the use of
deadly force upon a 74 year old mentally ill man
armed with a hatchet. The Eleventh Circuit held
in Shaw in affirming summary judgment in
favor of the Defendants that:
He was close to him-within a few feet-and was
getting closer still, yelling at Williams to “Shoot
it!” Shaw could have raised the hatchet in
another second or two and struck Williams with
it. Whether the hatchet was at Shaw’s side,
behind his back, or above his head doesn’t
change that fact. Given those circumstances, a

24
reasonable officer could have believed that Shaw
posed a threat of serious physical injury or death
at that moment. A reasonable officer could have
also concluded, as Williams apparently did, that
the law did not require him to wait until the
hatchet was being swung toward him before
firing in self-defense.
Shaw, 884 F.3d at 1100.
The Eleventh Circuit’s opinion here distinguished
Shaw by stating: “viewing the evidence in the light
most favorable to Dr. Teel, Officer Lozada had no prior
information that Mrs. Teel may be aggressive and yet
he shot her three times, without giving her any
warning, from more than four times the distance in
Shaw.” (Pet. App. 1 at pg. 14, fn 8). However, this fails
to take into account that once Deputy Lozada went
upstairs to try to prevent Mrs. Teel from harming
herself further, it quickly became apparent that she
posed a threat not only to herself, but to Deputy
Lozada as well. This was evidenced by both her body
language (walking steadily with a knife raised toward
a uniformed officer who had a gun pointed at her) and
her words (which repeatedly and profanely demanded
that he kill her). It was only then that Deputy Lozada
shot Mrs. Teel. It was further undisputed that she
never stopped approaching him nor did she drop the
knife. As this Court has stated on more than one
occasion: Deputy Lozada did not need to wait and hope
for the best. See Scott v. Harris, 550 U.S. at 385, 127
S.Ct. at 1778. The law does not require officers in a
tense and dangerous situation to wait until the
moment a suspect uses a deadly weapon to act to stop

25
the suspect. As the Honorable Justice Oliver W.
Holmes Jr. noted 100 years ago in Brown v. United
States, 256 U.S. 335, 343, 41 S.Ct. 501, 65 L.Ed. 961
(1921): “[d]etached reflection cannot be demanded in
the presence of an uplifted knife.”
Furthermore, when Deputy Lozada first arrived at
the Teel residence he met briefly with Dr. Teel and saw
that he had blood stains on his clothing. Dr. Teel at
that time told Lozada that his wife was armed with a
knife, that she was trying to kill herself and that he
had been unable to get the knife away from her.
[R-29-1- pg. 8- lns. 12-21]. It would have been apparent
to any reasonable officer in Deputy Lozada’s position
that Mrs. Teel was armed, uncooperative and
potentially violent as she had already caused injuries
to herself and had been successful in keeping her
husband from taking the knife away from her. This is
particularly true as Deputy Lozada knew she was
impaired and suicidal.
The Eleventh Circuit also noted that Mrs. Teel was
diminutive in size. (Pet. App. 1 at pg. 14). Here it was
undisputed that Dr. Teel, who was a much larger
individual that his wife, had been unable to get the
knife away from Mrs. Teel which suggests
notwithstanding her size, she was still a force to be
reckoned with. Regardless, Mrs. Teel’s size made the
lethal weapon she held overhead no less sharp or
dangerous. The Eleventh Circuit erred in not
determining that Deputy Lozada’s use of deadly force
was objectively reasonable based upon what was
known to him at the time of the subject incident. See
Mullenix, supra.

26
The Eleventh Circuit relied too heavily on Mercado
v. City of Orlando, 407 F.3d 1152 (11th Cir. 2005)
which involved a suicidal person with a knife who was
shot in the head with a sage launcher from a distance
of six feet while he was still sitting on the ground while
pointing a knife at his own heart and while making no
threatening moves toward the officers. Mrs. Teel, on
the other hand, while about ten feet away was on her
feet approaching Lozada with a knife in her hand in a
raised position demanding to be killed and continued to
advance while armed even as she was being shot and
as Lozada stepped back. The appellate court below
made no mention of Collar v. Austin, 659 F. Appx. 557
(11th Cir. 2016) which in many material respects is
strikingly similar to the present case as noted by the
trial court:
There, the decedent was similarly weak; he was
a “naked, unarmed, impaired minor....”The
decedent was also similarly insistent that the
officer shoot and kill him; his only words were,
“Shoot me” and “Kill me.” Id. at *12. He also
never reached for the officer or his gun. Id.
Based on this behavior, Plaintiff’s counsel
argued that the decedent was “a threat only to
himself.” Id. Indeed, actions that show a person
wants to be shot and killed seem to suggest that
they have no interest in hurting the officer.
However, the Eleventh Circuit found otherwise,
reasoning that although judges might consider
an officer’s actions to be unreasonable “from the
comfort and safety of our chambers . . . [w]e
must see the situation through the eyes of the
officer on the scene who is hampered by

27
incomplete information and forced to make a
split-second decision between action and
inaction in circumstances where inaction could
prove fatal.” Collar v. Austin, 659 F. Appx. 557,
560 (11th Cir. 2016) (quotations omitted).
Further, the officer in Collar never issued a
warning before shooting the minor in the
abdomen. Id. at *13. The Eleventh Circuit found
that a jury could conclude that seconds before
the defendant fired, he knew that another officer
was nearby. Collar, 659 F. Appx. at 559. Neither
of these facts swayed the court’s reasoning.
(Pet. App. 21 at pg. 9).
The Eleventh Circuit’s opinion that Mrs. Teel “was
not actively resisting arrest, and there is no evidence
that [she] struggled with” Officer Lozada and therefore
a reasonable person could not determine that she posed
any threat to officer Lozada is in direct conflict with the
record evidence and any reasonable inferences derived
therefrom. (Pet. App. 1 at pg. 15). It belies logic to state
that a reasonable officer would not consider Susan Teel
an immediate threat given the totality of the
circumstances faced by Deputy Lozada in the brief
moments prior to the use of force walking towards a
law enforcement officer while holding a raised knife
and uttering “Fuck you, kill me.” See Kisela v. Hughes,
138 S.Ct. 1148, 200 L.Ed. 2d 449 (2018)(officer’s
shooting of a woman holding a large kitchen knife,
when responding to 911 emergency call, did not violate
clearly established law, thus officer was entitled to
qualified immunity).

28
As part of its analysis, the Eleventh Circuit stated
that Deputy Lozada “gave her no instruction or
warning. He said nothing to her at all.” (Pet. App. at
pg. 5). However, this finding of fact discounts the
undisputed evidence that the events happened quickly
and Deputy Lozada said to Mrs. Teel, at the very least:
“don’t come.” [R-39-4-pg. 3]. If anything, this supports
Deputy Lozada’s testimony that he did not have time to
warn her that he was going to shoot her.
The Eleventh Circuit improperly rejected Deputy
Lozada’s testimony that Mrs. Teel was approaching
him “in a threatening manner” and otherwise failed to
judge the reasonableness of his use of deadly force from
the perspective of a reasonable officer on the scene,
rather than with the 20/20 vision of hindsight from the
safety of judicial chambers. City and County of San
Francisco, Calif. v. Sheehan, 575 U.S. 600 (2015); see
also, Mercado, supra; Cantu v. City of Dothan,
Alabama, 2020 WL 5270645 (11th Cir. 2020).
The Eleventh Circuit’s opinion was also critical that
Deputy Lozada did not retreat (although he did) or
consider other less lethal uses of force. (Pet. App. 1 at
pg. 14). However, this “should have, could have” type of
analysis is a classic example of viewing an incident in
hindsight, which is exactly how this Court has stated
an officer’s use of force should not be judged. See
Graham, supra. An officer does not have to avoid the
use of deadly force or exhaust all feasible alternatives
to avoid the use of deadly force that is otherwise
reasonable. See Carr v. Tatangelo, 338 F.3d 1259, 1270
(11th Cir. 2003) (“Reconsideration will nearly always
reveal that something different could have been done

29
if the officer knew the future before it occurred. This is
what we mean when we say we refuse to second-guess
the officer.” (internal citation omitted)); see also Plakas
v. Drinski, 19 F.3d 1143 (7th Cir. 1994).
Furthermore, the law was not clearly established
that Lozada had a duty under state or federal law to
retreat or to attempt to use less than deadly force in a
deadly force situation. Terrell v. Smith, 668 F.3d 1244,
1252-53 (11th Cir. 2012); Penley v Eslinger, 605 F.3d
843 (11th Cir. 2010). It was also not clearly established
that Lozada had to give a warning before using deadly
force in a situation where it is obvious by Mrs. Teel’s
statement asking to be killed, that she was aware of
that possibility and yet she continued to advance while
armed with a knife despite having several seconds to
drop the knife. Quiles v. City of Tampa Police
Department, 596 F.Appx. 816 (11th Cir. 2015).
Under the undisputed circumstances of this case,
Mrs. Teel would have appeared to a reasonable officer
in Lozada’s shoes to be gravely dangerous. See Penley,
605 F.3d at 843. Consequently, the Eleventh Circuit’s
decision conflicts with the binding precedent of this
Court, as well as its own precedent. See Kisela, supra;
Mullenix, supra; Brosseau, supra.

30
B. The Eleventh Circuit engaged in
reversible error in finding that Deputy
Lozada is not entitled to Qualified
Immunity under the unique facts of this
case, despite the absence of factually
similar case law, by application of the
obvious factual clarity rule contrary to
this Court’s prior opinions.
As this Honorable Court has noted, “[q]ualified
immunity is no immunity at all if ‘clearly established’
law can simply be defined as the right to be free from
unreasonable searches and seizures.” City & County of
San Francisco, Calif. v. Sheehan, 135 S. Ct. 1765, 1776
(2015).
The Eleventh Circuit erred as a matter of law in
finding that this case was an obvious clarity case in its
justification for the denial of qualified immunity to
Deputy Lozada. This Court has referred to the “obvious
case” as a rarity. See District of Columbia v. Wesby, 138
S.Ct. 577, 590 (2018). This Court has also stated that
“specificity is especially important in the Fourth
Amendment context, where the Court has recognized
that it is sometimes difficult for an officer to determine
how the relevant legal doctrine, here excessive force,
will apply to the factual situation the officer confronts.”
Mullenix v. Luna, 577 U.S. 7, 10, 136 S.Ct. 305, 308,
193 L.Ed.2d 255 (2015)(internal quotation marks
omitted). Use of excessive force is an area of the law “in
which the result depends very much on the facts of
each case,” and thus police officers are entitled to
qualified immunity unless existing precedent “squarely
governs” the specific facts at issue. Mullenix, 136 S.Ct.

31
at 309 (internal quotation marks omitted and emphasis
deleted). Kisela, 138 S.Ct. at 1152-1153. This Court has
“repeatedly told courts ... not to define clearly
established law at a high level of generality.” Mullenix,
136 S.Ct. at 308; Brosseau v. Haugen, 543 U.S. 194
(2004)(the Court did not apply the obvious clarity
standard for a Fourth Amendment shooting case citing
Hope v. Pelzer, 536 U.S. 730 (2002)).
The Eleventh Circuit panel itself noted: “under the
unique circumstances of this case it would be
obviously clear to any reasonable officer that the
display of force was excessive.”(emphasis added) (Pet.
App. 1 at pg. 19). However, as this Court has stated
such “unique circumstances” should have been an
important indication to the panel that Deputy Lozada’s
conduct did not violate a “clearly established” right. In
White v. Pauly, 137 S.Ct. 548 (2017), this Court
reversed the Tenth Circuit’s affirmance of a lower
court’s denial of qualified immunity to an officer who
had arrived late to an ongoing police action and who,
having witnessed shots being fired by one of the
suspects in a house which was surrounded by officers,
shot and killed one of the suspects. In finding that the
officer was entitled to qualified immunity, this Court
stated:
This is not a case where it is obvious that there
was a violation of clearly established law under
Garner and Graham. Of note, the majority did
not conclude that White’s conduct—such as his
failure to shout a warning—constituted a
run-of-the-mill Fourth Amendment violation.
Indeed, it recognized that “this case presents a

32
unique set of facts and circumstances” in
light of White’s late arrival on the scene. 814
F.3d, at 1077. This alone should have been
an important indication to the majority
that White’s conduct did not violate a
“clearly established” right.
White, 137 S.Ct. at 552 (emphasis added).
The Eleventh Circuit here improperly held this case
to be an obvious clarity case when, ironically, the case
law of the Eleventh Circuit such as Mercado and Shaw
as well as this Court’s precedent such as Kisela
demonstrate that the governing law here is not “clearly
established” much less obviously clear.

33
CONCLUSION
For the foregoing reasons, this Court should grant
this petition and issue a writ of certiorari to review the
judgment and opinion of the Eleventh Circuit Court of
Appeals.
Respectfully submitted this 16th day of April, 2021.
SUMMER M. BARRANCO
Counsel of Record
RICHARD A. GUIFFREDA
PURDY, JOLLY, GIUFFREDA,
BARRANCO & JISA, P.A.
2455 East Sunrise Boulevard,
Suite 1216
Fort Lauderdale, Florida 33304
Telephone: (954) 462-3200
Telecopier: (954) 462-3861
summer@purdylaw.com
richard@purdylaw.com
Counsel for Petitioner

